<html>
<title> - Panel Discussion:''And We Were Germans: The Life of Hans-Jurgen Massaquoi and Ralph Giordano''</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






115th Congress                                Printed for the use of the 
2nd Session             Commission on Security and Cooperation in Europe 
________________________________________________________________________



 
                      Panel Discussion: ''And We Were 
                     Germans: The Life of Hans-Jurgen 
                      Massaquoi and Ralph Giordano''
    
    
    
    
   
   
   
   
   
   
   
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
   
   
   
   
   
   
   
   
    
                      
                            FEBRUARY 20, 2018



                               Briefing 
              Commission on Security and Cooperation in Europe 
_______________________________________________________________________

                            Washington: 2018

















               Commission on Security and Cooperation in Europe
                       234 Ford House Office Building
                           Washington, DC 20515
                               202-225-1901
                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593a2a3a3c19343830357731362c2a3c773e362f">[email&#160;protected]</a>
                            http://www.csce.gov
                               @HelsinkiComm






                       Legislative Branch Commissioners


          HOUSE                                   SENATE
CHRISTOPHER H. SMITH, New Jersey          ROGER WICKER, Mississippi,
          Co-Chairman                       Chairman
ALCEE L. HASTINGS, Florida                BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama               JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                 CORY GARDNER, Colorado
STEVE COHEN, Tennessee                    MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina            JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                  THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                 TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                     SHELDON WHITEHOUSE, Rhode Island
          
          
                      Executive Branch Commissioners

                          DEPARTMENT OF STATE 
                         DEPARTMENT OF DEFENSE 
                        DEPARTMENT OF COMMERCE


                                    [II]






       ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.

       ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE



    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.





        Panel Discussion: ``And We Were Germans: The Life of 
            Hans-Jurgen Massaquoi and Ralph Giordano''


                             _________________


                              February 20, 2018


                                                                        Page
                              PARTICIPANTS




Dr. Mischa E. Thompson, Senior Policy Advisor, Commission for Security 
  and Cooperation in Europe ..........................................     1
John A. Kantara, Director, ``And We Were Germans: The Life of Hans-Jurgen 
  Massaquoi and Ralph Giordano'' .....................................     2









             Panel Discussion: ``And We Were Germans: The Life of  
                    Hans-Jurgen Massaquoi and Ralph Giordano''
                    
                    
                    
                              ----------                         
                              

                           February 20, 2018




                   Commission on Security and Cooperation in Europe 
                                  Washington, DC





    The briefing was held at 2:00 p.m. in Room 121, Canon House Office 
Building, Washington, DC, Dr. Mischa E. Thompson, Senior Policy 
Advisor, Commission for Security and Cooperation in Europe, presiding.

    Panelists present: Dr. Mischa E. Thompson, Senior Policy Advisor, 
Commission for Security and Cooperation in Europe; and John A. Kantara, 
Director, ``And We Were Germans: The Life of Hans-Jurgen Massaquoi and 
Ralph Giordano. ''





    Dr. Thompson. Good morning. My name is Dr. Mischa Thompson. Welcome 
to ``And We Were Germans,'' a briefing hosted by the U.S. Helsinki 
Commission, also known as the Commission on Security and Cooperation in 
Europe. This event is taking place in honor of Black History Month. For 
those of you who may not know, the Helsinki Commission is an 
independent U.S. Government agency focused on human rights, economics, 
and security in the 57 North American and European countries that make 
up the Organization for Security and Cooperation in Europe, or OSCE. 
The commission is chaired by Members of Congress, bicameral, 
bipartisan, and includes the executive branch.
    The OSCE has had a focus on diverse and vulnerable populations, 
from Roma and Jewish populations to national minorities and migrants in 
Europe and the United States, since its inception. Over the past 
decade, our commissioners have also focused on the situation of people 
of African descent in Europe, or black Europeans, from hearings in the 
U.S. Congress to resolutions in the OSCE Parliamentary Assembly. You 
can find a report in the blue folder that details many of these 
initiatives.
    Now, central to those efforts has simply been raising awareness 
about Europe's long history and contributions of African-descent 
populations, from the Moors in Spain to present-day migrants and 
refugees. We are, therefore, very pleased to be screening today a film 
that is both American and European history, on two luminaries: Hans 
Massaquoi and Ralph Giordano. We are also thankful that Dean Jacqueline 
Jones and DeWayne Wickham of Morgan State University in Maryland were 
able to facilitate the participation of the film's director, Professor 
John Kantara, in today's briefing. Professor Kantara, we're just really 
pleased that you're able to be here today.
    Mr. Kantara. Thank you. Thank you for having me.
    Dr. Thompson. You can find Professor Kantara's bio in the blue 
folder and online. And he will also be here with us to discuss the film 
and what is currently happening overseas immediately following the 
film. And so, without further ado, we will present now ``And We Were 
Germans.''

    [The film ``And We Were Germans: The Life of Hans-Jurgen Massaquoi 
and Ralph Giordano'' is shown.]

    Dr. Thompson. So one of the things I meant to say in the beginning 
is this is not an easy film to watch. If anyone has been to any other 
commission briefing, I think we're known for actually playing films 
that address very difficult subjects, but with the goal of really 
bringing attention to events that are taking place, and this idea 
toward moving toward solution. So, with that, I want to turn to 
Professor Kantara and just begin by asking you: Why is that you even 
decided to make this film?
    Mr. Kantara. Well, basically, it was by coincidence. In 1997, I 
went with a group of black German youth to Chicago. And somehow the 
German cultural institution Goethe Institute got wind of it, that we 
were coming to Chicago, to Northwestern University, and trying to 
develop a black German African American cultural exchange program. And 
what happened is they invited us to come to the Goethe Institute and 
have a little reception. And Hans Massaquoi, a Chicagoan, came to that 
reception. And we had an older man, a black German with us. And these 
two older gentlemen then were talking to each other. And, I said, who's 
this?
    And so I basically came and eavesdropped a little bit--journalist, 
you know. And I got to know that he was actually from Hamburg. And so I 
got to know Hans Massaquoi a little bit. And he told me that he was 
planning on his autobiography. And then I said, okay, if you write that 
autobiography, I'll make a film about that. So I was the first one--
[laughs]--to ask him. And he said, okay, let's do it. And then I did. 
That's why I did the film, because he came out with his autobiography, 
``Destined to Witness'' in--first published in German, and a few years 
later in English as well. And it was great. It's been a running success 
in Germany. And we got to convince a couple of editors that we must 
write that book with that access. And, with that book written, we must 
make a film. And so I did the documentary on it.
    Dr. Thompson. Wow. So now can you tell us a little bit about how 
this film was actually received? This film was done in 1999, so there 
were a few things going on then. [Laughter.]
    Mr. Kantara. Right. I mean, having in mind that Germany was just 
reuniting, in a way, we had some real hard problems, with extreme 
right-wing activity, particularly in East Germany. And so we had 
refugee homes burning and it was really not a nice sight. So we really 
thought we needed to explain to our viewers that, my people and black 
Germans have a long history in Germany. Quite a few Germans do not know 
that up to 1918, the end of the First World War, Germany was a colonial 
power. So, Tanzania was a German colony. Cameroon was a German colony. 
Rwanda, Burundi, German colonies. Namibia, a German colony, and in the 
Pacific as well.
    We had actually a sizable community of black people living in 
Germany. Not only Germans moving to Namibia, it went the other way 
around as well. And, particularly in bigger cities like Hamburg, like 
Berlin, at the start of the Second World War we had a sizable community 
of black people living there. Not big. Not like in, my hosts at Morgan 
State University--my hosts in Morgan State University showed me 
Baltimore. Oh, no, not as big as in Baltimore. But, still, we were 
there.
    And that is not really well known. That was not really known in 
Germany at all, because the colonies were given to France and to 
England after the war. And basically, the Nazis did everything to kill 
us off. And so there weren't that many remaining after the war. 
Massaquoi immigrated to the U.S. just like a few others, you know, just 
said: Get us out of here. And so, that history is not really taught in 
schools and people didn't know. And so I wanted to change that a little 
bit.
    Dr. Thompson. Now you touched on a number of different things, in 
what you said just now. The film touched on everything from history, to 
personal experience, just even surviving.
    Mr. Kantara. Yes.
    Dr. Thompson. But what touched you most about that film? I mean, 
you met luminaries during this film. There's just so much here. But 
what touched you the most, would you say?
    Mr. Kantara. Well, you see, we are students of the African American 
struggle and the civil rights movement, because we took a few cues from 
black people and their struggle in the United States and we said: What 
can we learn from that? I mean, we all listen to Martin Luther King, 
his famous speech at the Mall, you know, ``I have a dream.'' We have 
that in school. But, you know, we actually took some cues and said: We 
have similar problems. What can we learn from African Americans? And 
so, we now have in February in Germany a Black History Month, of 
course, because of you guys having created this.
    I wanted to inform my compatriots, the Germans, about our history, 
about the fact that we're here--that we're there, and we're here to 
stay. We're not leaving. This is our country. We're not foreigners. 
We're Germans. And that was important. And so trying to organize, 
trying to find a way to bring people together--not only black people, 
but, black and white people, and Jewish people, and the people who are 
affected by discrimination and racism, even today, that is a very 
important task.
    And that's what I wanted to do, help people out--and myself, 
because I have two kids. I have two beautiful children--and hopefully 
they're watching--[laughter]--I have two beautiful children. And I want 
them to live in a safe Germany, as Germans. And so we learned a bit 
from the American experience. And I think we could actually bring it to 
bear and change a few things. We're still struggling, but we're going 
there.
    Dr. Thompson. And I'll ask you just one more question before we 
turn it over to the audience. You had mentioned that you were at a 
preview of the ``Black Panther'' film.
    Mr. Kantara. Yes.
    Dr. Thompson. And so, just because you're a black filmmaker--
[laughter]--I'd be very interested to hear how that film was actually 
received in Germany.
    Mr. Kantara. You know, we have a few organizations in Berlin who 
actually came together to arrange a screening of the ``Black Panther'' 
movie the day it came out in Germany. So they actually--10 different 
organizations came together and hired a cinema complex. It was full. 
And it was amazing to see how young, black, German kids--you know, 16-
year-olds--related to what was shown in the film. They were picking up 
on lines and hollering in the--[laughter]--and it was really funny to 
see. And I was sitting actually there in amazement, seeing how they 
identified.
    I mean, mind you, one of America's biggest exports is their 
cultural export. It is Hollywood. We all see these Hollywood movies. 
But as Germans, we try to relate, but we're not really represented. I 
mean, you--I guess you know that, but the black guy always has to die 
first. [Laughs.] And so to us, it was really amazing to see a positive 
image of Africa being depicted, our beautiful people. I mean, it's a 
comic. It's entertainment. But there was a stronger message behind it. 
And obviously, at least where I'm coming from in Berlin, everybody 
loved it. And I think it's a huge success. You know, and we relate. We 
can relate to the people, the positive stories being told there. It was 
great fun.
    Dr. Thompson. So now, with that, I'll actually open it up to the 
audience. We have time for a few questions. Is there anyone that would 
like to ask a question?
    Questioner. How available is the film to universities and----
    Dr. Thompson. I'm sorry, I apologize. Can you please just say who 
you are and what organization you're with?
    Questioner. I'm Dr. Marilyn Sephocle from Howard University.
    Mr. Kantara. Well, it's always been a problem, because it actually 
belongs to ZDF Television. I have, as the author and the director, the 
right to show it. The problem is, you know, to give it to 
universities--I would love to do that, because it's just a resource you 
could use in your classrooms. But I'm not so sure whether that is 
possible without paying the----
    Questioner. Of course, we'd----
    Mr. Kantara. But you'd have to go to ZDF Television Zweites 
Deutsches Fernsehen, and I can help you with that a little bit. But it 
takes time. There's bureaucracy. [Laughter.]
    Dr. Thompson. Are there other questions from the audience, or 
online? Can you say your name and your organization?
    Questioner. Rachel Mina from Congressman Tom O'Halleran's office.
    You spoke earlier about how there were still many problems that 
Afro-Germans were experiencing. And would you compare those to some of 
the things that African Americans struggle with, that African Americans 
have here in the States? Or are they a different set because the 
culture is different? Or how would you compare them?
    Mr. Kantara. Well, obviously, Germany is not the U.S. But we have a 
few problems, I would say, which are the same. I'm sure you're familiar 
with the problem of racial profiling. That's something we experience as 
well--driving while black. That is something which is happening. I 
mean, quite a few people would dispute this and say, no, police are 
colorblind. Well, I like to--I'd like to differ, I think. There are 
some problems with policing, although it gets better because--at least 
in metropolitan areas like Berlin--we get more and more people of color 
in the force.
    So that is really important. The force should look like the 
community it's serving. And that is not really the case as of yet. But 
it's changing. I know that police in Berlin are trying actively to 
recruit more from minorities. It is not always simple--it's not easy, 
because for so long there was a perceived, maybe even only, antagonism. 
And now what we're trying to do is, we have to overcome this perceived 
antagonism. We have got to have more diversity in the police force, but 
not only in the police force, in the armed services as well.
    I think we're probably the whitest force--military force in Western 
Europe. The Dutch are more diverse. The French, the British. German 
armed forces, the Bundeswehr, is very white. And so we need to change 
that, because of the social mobility it provides. I mean, it's not only 
just, oh, we'd like to have more colorful armed forces, no, or police 
force. It means social mobility. There are some euros put in that. And 
we are taxpayers. We want to participate in that. So it needs 
participation.
    Dr. Thompson. Are there other questions? So we'll go here and then 
we'll go here.
    Questioner. Hi. I'm Sibel with the minority office of the Senate 
Foreign Relations Committee.
    Mr. Kantara. OK.
    Questioner. I have a question about how Hans Massaquoi arrived in 
the United States. Was he--what year did he arrive and was he granted 
asylum as a refugee or did he immigrate? How was that process?
    Mr. Kantara. Yes. Well, first of all, Hans Massaquoi did not go 
straight from Germany in 1948 to the U.S. He first went to Liberia, 
where his father came from. And he stayed a few years in Liberia, but 
his father died. And so he migrated to the U.S. from Liberia because 
his maternal uncle--so, from his white mother's side--was living in 
Chicago. So he got a visa to immigrate to the United States to see his 
family basically--his white family in Chicago. And as I understand it, 
he was drafted into the Korean War. So that must have been in the 
1950s. So don't lay me down on the correct year. I would have to refer 
you to his book, ``Destined to Witness,'' because I think it's in 
there.
    But he was actually--he told me he became a paratrooper for the 
U.S. Air Force. And he was able to study, through the GI law. So he 
studied journalism after his service in the U.S. Army--or Air Force--
what is it? I'm not sure, Army or Air Force. And then, his first job 
was at Jet magazine, something like this, yes? Somewhere in Chicago. 
And eventually he became managing editor of Ebony magazine after years 
and years and years and years. But he was thrown into chronically, 
basically, the civil rights movement as a journalist. And, it's an 
irony, you know? You just escape Nazi persecution in Germany, only to 
come to America and see that all is not right in America as well.
    And so he had fire in him to report about it. And so some of the 
greatest men I ever met, Hans Massaquoi, and Ralph Giordano. They were 
good friends. And they were really inspirational. They were really--
both passed, unfortunately. But, they were really inspirational. And 
particularly this friendship between this Jew and this black man, you 
know? They were--they were inseparable. They worked together, because 
they know the enemy--that our enemy is the same--they make--they make 
no distinction, basically. You know? So, whether it's antisemitism or 
racism, it's the same thing.
    Dr. Thompson. So we have time for one more question or comment from 
the audience.
    Mr. Kantara. Sure.
    Questioner. Are you familiar with Kurt Vonnegut's short story, 
``Displaced Person''?
    Mr. Kantara. No, I'm not--I'm familiar with Kurt Vonnegut, but not 
that story.
    Questioner. But this is a story of an Afro-German boy who survives 
World War II and is isolated. And American soldiers come, and it's a 
black battalion. And PBS in 1985 did a beautiful film based on this. 
The star of it was the same man who was in ``A Soldier's Story,'' ``A 
Mind is a Terrible Thing to Waste.'' And if you can dig that up, I 
think that'll resonate with an Afro-German person, or any African 
American, because it deals with the irony, the paradox.
    Mr. Kantara. You know, I will certainly dig that up, because I 
think it looks interesting. But, you have to know, we--in Germany, we 
were occupied by American forces for over 40 years. And I think 
millions of African Americans went through Germany in their service, 
being soldiers, GIs, in Germany--in my country. And millions of them--
men, you know, when you are 21 or something you're not--you're not a 
Catholic priest. So celibacy is not in there. And so you're going out 
in the discotheques and so on, and you have relationships.
    Thousands upon thousands of black Germans were fathered by African 
American GIs. So we have, direct relations to the United States. 
[Laughter.] Quite a few, you know? So when you imagine it was, I think, 
the year 1955, the German Bundestag discussed the fate of black 
children in foster homes or children's homes. And they were already--
just 10 years after the war--we already had some 10,000 black German 
kids, abandoned by their white German mothers. So, quite a few of them 
went to the United States, were actually adopted by African American 
servicemen and women. So there is a Black German Cultural Society in 
the United States.
    Part of the reason why I'm here today is to raise awareness and 
say, hey, we're here. We're not many, that's true, but we're there. And 
we try to make a difference. And maybe we ought--you're doing Black 
History Month--to say to you all thank you, because you helped us a 
great deal with your struggle. Your struggle in the United States 
informed our struggle back home. Yes, I think that's very important to 
say. Thank you.
    Dr. Thompson. Well, we would really like to thank you for being 
here, and just taking the time with us today. Some of you may know that 
last week Representative Hank Johnson's office held an event with actor 
Danny Glover, focused on the International Decade for People of African 
Descent, that two of our commissioners participated it--Senator Ben 
Cardin and Congresswoman Gwen Moore. They, in addition to Congressman 
Alcee Hastings, actually have legislation that they've put out related 
to raising awareness about people of African descent in Europe, as well 
as supporting issues around civil and human rights. And these are 
issues that the commission continues to work on.
    In the beginning I talked about the fact that the commission has 
had a long history working on Roma, Jewish, and other populations in 
the region. They've also really worked within the OSCE to focus on 
people of African descent as well. And so if you look in the blue 
folders, on the last page, it actually details some of that work for 
people who are curious.
    And then I think the last piece that's of interest, because we are 
speaking about Germany, is that populations in Europe are changing, 
just as they are in the United States. And so there's increasing 
diversity across the board. Estimates at this point are that there are 
about 12 to 15 million people of African descent in Europe. And there 
is also legislation on the table in Europe asking for specific policies 
around diversity and inclusion in Brussels and other places as well.
    So this really is a transatlantic conversation, but it's a 
transatlantic conversation about our future. Whether it's our military 
and security futures, whether it's about our economies and what our 
work forces are going to look like, or whether it's about human and 
civil rights, it's a conversation that really impacts us all on both 
sides of the Atlantic.
    And so, with that, I would like to say: Thank you all for joining 
us today. And Professor Kantara will be here for a little bit longer to 
answer any additional questions.
    Mr. Kantara. Thank you. [Applause.]
    [Whereupon, at 3:08 p.m., the discussion ended.]
 
                                  [all]
                                  
                                  






            This is an official publication of the Commission on
                    Security and Cooperation in Europe.


                               * * *

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                               * * *

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                * * *

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
